HHS/OIG, Audit - "Review of Medicare Payments for Beneficiaries with Institutional Status, Health Net of Arizona, Inc., Phoenix, Arizona," (A-05-01-00078)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status,
Health Net of Arizona, Inc., Phoenix, Arizona," (A-05-01-00078)
April 11, 2002
Complete
Text of Report is available in PDF format (162 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides
the results of our audit made to determine whether Medicare payments to Health
Net (Contract H0351) were appropriate for beneficiaries reported as institutionalized.
We determined that Health Net received Medicare overpayments totaling $21,233
for 53 beneficiaries incorrectly reported as institutionalized during the period
January 1, 1998 through December 31, 2000.  The majority of the beneficiaries
were residents of domiciliary type facilities that do not qualify a beneficiary
for institutional status.  Health Net should not have received payment
at the enhanced institutional rate.